U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jorge Hiram Baez-Martinez v. United States, No. 20-5075
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 10, 2020.
The government’s response is now due, after one extension, on September 14, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including September 16, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is
endeavoring to minimize risks to the health and safety of our personnel responsible for the filing
and service of paper copies of Court documents by reducing the number of days each week on
which the filing and service of such documents are necessary and on which those personnel must
report to work in person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5075
BAEZ-MARTINEZ, JORGE HIRAME
USA

FRANCO LORENZO PEREZ-REDONDO
241 F.P. ROOSEVELT
SAN JUAN, PR 00918

